No.

,31m: tlje

Supreme fflnurt txf t\\t ^Anxtzb ^tutz&
Richard Balter,
Petitioner,
v.

United States

of

America,
Respondent.

PROOF OF SERVICE
I, Richard Balter, do swear or declare that on this date, August 19, 2020, as required by Supreme
Court Rule 29, I have served the enclosed PETITION FOR A WRIT OF CERTIORARI on each party to the
ABOVE PROCEEDING OR THAT PARTY’S COUNSEL, AND ON EVERY OTHER PERSON REQUIRED TO BE SERVED, BY DEPOSITING
AN ENVELOPE CONTAINING THE ABOVE DOCUMENTS IN THE UNITED STATES MAIL PROPERLY ADDRESSED TO EACH OF THEM
AND WITH FIRST-CLASS POSTAGE PREPAID.
The NAMES AND ADDRESSES OF THOSE SERVED ARE AS FOLLOWS:

Rebecca Sara Levenson
Assistant U.S. Attorney
U.S. Attorney’s Office
Eastern District of Virginia
2100 Jamieson Avenue
Alexandria, Virginia 22314-5194

Solicitor General of the
United States
Room 5614
Department of Justice,
950 Pennsylvania Ave., N.W.,
Washington, D. C. 20530-0001

I DECLARE UNDER PENALTY OF PERJURY THAT THE FOREGOING IS TRUE AND CORRECT. EXECUTED ON AUGUST 19.

2020.

Richard Balter
Reg. No. 17432-050
FCI Petersburg Medium
P.O. Box 1000 Petersburg,
Virginia 23804 No Phone

Petitioner

No.

<3I« life

Jimprmte (Emxvt of tl}t ffinxttb Jitates
Richard Balter,
Petitioner,
v.

United States

of

America,
Respondent.

PROOF OF SERVICE
I, Richard Balter, do swear or declare that on this date, August 19, 2020, as required by Supreme
Court Rule 29, I have served the enclosed PETITION FOR A WRIT OF CERTIORARI on each party to the
ABOVE PROCEEDING OR THAT PARTY’S COUNSEL, AND ON EVERY OTHER PERSON REQUIRED TO BE SERVED, BY DEPOSITING
AN ENVELOPE CONTAINING THE ABOVE DOCUMENTS IN THE UNITED STATES MAIL PROPERLY ADDRESSED TO EACH OF THEM
AND WITH FIRST-CLASS POSTAGE PREPAID.

The

names and addresses of those served are as follows:

Solicitor General of the
United States
Room 5614
Department of Justice,
950 Pennsylvania Ave., N.W.,
Washington, D. C. 20530-0001

Rebecca Sara Levenson
Assistant U.S. Attorney
U.S. Attorney’s Office
Eastern District of Virginia
2100 Jamieson Avenue
Alexandria, Virginia 22314-5194

I DECLARE UNDER PENALTY OF PERJURY THAT THE FOREGOING IS TRUE AND CORRECT. EXECUTED ON AUGUST 19,

2020.

z

nichard Baiter
Reg. No. 17432-050
FCI Petersburg Medium
P.O. Box 1000 Petersburg,
Virginia 23804 No Phone

Petitioner

